Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   COST SHARING FOR OLDER 

   AMERICANS ACT SERVICES





                    Daniel R. Levinson

                     Inspector General 


                     September 2006

                     OEI-02-04-00290

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by
others. Audits examine the performance of HHS programs and/or its grantees and
contractors in carrying out their respective responsibilities and are intended to provide
independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG' s internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidance, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                        S U M M A R Y            




                  OBJECTIVES
                  To assess the extent to which States have implemented cost sharing
                  under the Older Americans Act (OAA).

                  To determine whether States implementing cost sharing under the OAA
                  do so in accordance with requirements designed to protect low-income
                  individuals’ access to services.


                  BACKGROUND
                  The Administration on Aging (AoA) has asked the Office of Inspector
                  General to assess States’ implementation of cost sharing. In 2000,
                  amendments to the OAA allowed States to implement cost sharing for
                  certain OAA services. Cost sharing provides a mechanism for States to
                  expand services to a growing number of Americans 60 years of age and
                  older. However, there is a general concern that cost sharing could
                  negatively impact participation of certain individuals, particularly those
                  with low incomes. This study is intended to provide relevant
                  information to AoA and to Congress as they consider any changes to cost
                  sharing during the current reauthorization of the OAA.

                  The OAA was enacted in 1965 and authorized a range of social service
                  and nutrition programs. It also created AoA, which carries out its
                  responsibilities by coordinating with State Units on Aging (State Units),
                  Area Agencies on Aging (area agencies), tribal organizations, and local
                  service providers. AoA distributes funds to States through Title III,
                  Grants for State and Community Programs on Aging. Title III-B funds
                  supportive services, Title III-C funds nutrition services, Title III-D
                  funds disease prevention services, and Title III-E funds the National
                  Family Caregiver Support Program.

                  The amendments to the OAA include a number of requirements for
                  States that choose to implement cost sharing. These requirements are
                  intended to ensure that low-income older individuals can obtain
                  services. Pursuant to the OAA, States and area agencies must develop
                  cost-sharing plans. The OAA further provides that States require area
                  agencies and local service providers to exclude individuals with incomes
                  at or below the Federal poverty line from cost sharing; not deny services
                  to individuals who do not pay; account for payments; and inform
                  recipients about cost sharing. Also, States must establish sliding scales
                  for cost sharing based on income. Additionally, AoA must determine the
                  impact of cost sharing on participation rates.

OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                      i
E X E C U T I V E                 S U      M M A R Y


                   This study looks at the extent to which States have implemented cost
                   sharing and whether they have implemented it in accordance with
                   statute requirements. We based this study on data gathered from
                   multiple sources: a written survey completed by State Unit
                   representatives from all 50 States, Puerto Rico, and the District of
                   Columbia; a review of relevant State documents regarding cost sharing
                   implementation, program revenue, and participation; structured
                   interviews with State Unit representatives, area agency officials, and
                   State data officials; and a review of AoA’s National Aging Program
                   Information System/State Program Reports (NAPIS/SPR) and
                   individual State data. AoA collects participation data for many of the
                   OAA services through the NAPIS/SPR. AoA uses the NAPIS/SPR data
                   to plan and manage activities performed and services provided under
                   the OAA.


                   FINDINGS
                   States’ implementation of cost sharing for OAA services is limited.
                   Twelve States have implemented cost sharing for at least one OAA
                   service. None of these States has implemented cost sharing for all OAA
                   services for which cost sharing is allowed. Further, in at least 6 of the
                   12 States, fewer than 350 individuals participate in cost sharing in each
                   of these States.
                   The States that have implemented cost sharing do not always follow
                   OAA requirements for cost sharing that are designed to protect low-
                   income individuals’ access to services. The States that have
                   implemented cost sharing do not always follow key OAA requirements.
                   Nine States have not developed cost-sharing plans to ensure that the
                   participation of low-income individuals receiving services will not
                   decrease with the implementation of cost sharing. Five States permit
                   individuals with incomes at or below the Federal poverty line to cost
                   share. Six States either deny services to individuals who do not pay or
                   make cost sharing appear mandatory. Three States have not
                   established sliding scales as required by the OAA. Six States do not
                   have policies for accounting for cost-share payments. Finally, none of
                   the States has created the required written materials that explain cost
                   sharing to recipients.
                   AoA has provided limited guidance to States and State officials are
                   often confused about features of cost sharing under the OAA. AoA
                   has provided limited guidance to States on implementing cost sharing in


 OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                     ii
E X E C U T I V E                 S U      M M A R Y


                   accordance with the OAA. AoA conducted an initial training session for
                   its regional offices. However, the training did not cover key
                   requirements such as the plans States are required to develop and the
                   written materials that explain cost sharing that States must create. In
                   addition, we found that AoA officials have limited information about
                   how States are implementing cost sharing. For instance, they have
                   little knowledge about States’ plans regarding cost sharing, their sliding
                   scales, accounting for cost-share payments, or informing recipients
                   about cost sharing. Finally, we found that officials from States and area
                   agencies often are confused about cost sharing for OAA services.
                   AoA’s participation data cannot be used to determine the impact of
                   cost sharing on participation rates. AoA is required to conduct an
                   annual evaluation of cost sharing to determine its impact on the
                   participation rates of individuals targeted by the OAA. AoA collects
                   participation data for many OAA services through the NAPIS/SPR. We
                   found that States report data in the NAPIS/SPR differently and that the
                   demographic data in the NAPIS/SPR are incomplete. As a result, data
                   in the NAPIS/SPR do not present a complete picture of participation
                   and, therefore, cannot be used to measure any impact cost sharing
                   might have on overall participation or on participation of low-income
                   individuals and other subgroups specified in the OAA.


                   RECOMMENDATIONS
                   Based on these findings, we recommend that AoA:
                   Ensure that States’ cost-sharing practices comply with requirements
                   designed to protect low-income individuals’ access to services. AoA
                   should address State and area agency practices that permit low-income
                   individuals to participate in cost sharing. AoA should also address
                   State and area agency practices that deny services to older individuals
                   due to income or failure to make a cost-share payment, as well as
                   practices that make cost sharing appear mandatory. In addition, AoA
                   should address the States’ lack of cost-sharing plans, sliding fee scales,
                   policies for accounting for payments, and written material that explain
                   cost-sharing.
                   Provide additional guidance to States about implementing cost
                   sharing in accordance with the OAA. AoA should provide additional
                   guidance to States regarding how to implement cost sharing in
                   accordance with OAA requirements. The guidance should address
                   issues such as (1) developing plans to ensure that the participation of

 OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                     iii
E X E C U T I V E                  S U        M M A R Y


                  low-income individuals will not decrease with the implementation of cost
                  sharing; (2) excluding low-income individuals from cost sharing;
                  (3) prohibiting the denial of services; (4) establishing sliding scales;
                  (5) developing procedures to account for cost-sharing payments; and
                  (6) preparing written materials to inform recipients about cost sharing.
                  AoA should also develop additional strategies to keep States informed
                  about these issues.
                  Improve the quality of the NAPIS/SPR data so that any effects of
                  cost sharing can be measured. AoA should improve the quality of its
                  data to measure any future impacts cost sharing may have on
                  participation rates, as required by the OAA. During the course of this
                  study, AoA has addressed some of the data problems. Specifically, the
                  NAPIS/SPR now retains records with missing data elements; the
                  NAPIS/SPR now collects some demographic data for recipients of Title
                  III-E services; and AoA is no longer required to approve waivers to
                  States. However, AoA has not addressed the differences in State
                  reporting.

                  When addressing these differences, AoA needs to give clear and
                  consistent instructions to States and consider whether to continue
                  directing States to report information for all services, including those
                  funded solely by State or local entities. If the NAPIS/SPR includes data
                  about non-OAA-funded services, then AoA needs to consider how it will
                  determine any effects of cost sharing on participation in OAA programs
                  and services, as required by the OAA.

                  In addition, the inconsistency of AoA’s participation data has
                  implications beyond cost sharing. This study focuses only on cost
                  sharing, but the differences in data reporting raise questions regarding
                  how AoA can use the data to effectively plan and manage activities
                  funded under the OAA. This broader issue affects AoA’s capacity to
                  manage all aspects of these services, not only cost sharing.


                  AGENCY COMMENTS
                  AoA provided comments on the draft report. In general, AoA agrees
                  with our findings that cost sharing is limited and that States are
                  confused about cost sharing. AoA states that it has taken many steps to
                  educate the Aging Network on cost sharing and does not agree with our
                  finding that it has provided limited guidance to States. AoA also states
                  that our observations about NAPIS/SPR are outside the scope of the
                  study and that it has made several improvements to NAPIS/SPR over

OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                    iv
E X E C U T I V E                 S U       M M A R Y


                   the last 5 years. In response to our recommendations, AoA notes that it
                   will follow up on our observations and correct instances of
                   noncompliance with the provisions of the OAA. AoA also plans to
                   provide additional guidance to States on an ongoing basis and post more
                   information on its Web site.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   Where appropriate, we have made changes to the report based on AoA’s
                   comments.

                   Because the OAA requires AoA to determine the impact of cost sharing
                   on participation rates, and NAPIS/SPR is the only data AoA has on
                   participation, we believe that it is necessary to include NAPIS/SPR in
                   any discussion about whether cost sharing has had an impact on
                   participation rates.

                   We recognize that AoA has made several improvements to NAPIS/SPR
                   over the last 5 years, many of which are noted in the report. However,
                   despite these improvements, we found that the States that cost share
                   report participation data in the NAPIS/SPR differently and include
                   different populations in their counts. This issue is important because it
                   has potential implications beyond cost sharing. These data provide
                   essential information for AoA, including performance outcome
                   information required by the Government Performance and Results Act
                   and the Performance Assessment Rating Tool.




 OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                     v
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   States’ implementation of cost sharing limited . . . . . . . . . . . . . . . . 8 


                   States do not always follow key OAA requirements . . . . . . . . . . . 10 


                   AoA has provided limited guidance to States . . . . . . . . . . . . . . . . 13 


                   AoA’s data cannot be used to determine impact . . . . . . . . . . . . . . 15 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                   Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 19 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42 

Δ   I N T R O D U C T I O N                              



                  OBJECTIVES
                  To assess the extent to which States have implemented cost sharing
                  under the Older Americans Act (OAA).

                  To determine whether States implementing cost sharing under the OAA
                  do so in accordance with requirements designed to protect low-income
                  individuals’ access to services.


                  BACKGROUND
                  The Administration on Aging (AoA) has asked the Office of Inspector
                  General (OIG) to assess States’ implementation of cost sharing. The
                  year 2000 amendments to the OAA allowed States to implement cost
                  sharing for certain OAA services. AoA defines cost sharing as a method
                  of allowing a recipient to share in the cost of the service received. Cost
                  sharing provides a mechanism for States to expand services to a
                  growing number of Americans 60 years of age and older. However,
                  there is general concern that cost sharing could negatively impact
                  participation of certain individuals, particularly those with low
                  incomes.

                  This study looks at the extent to which States have implemented cost
                  sharing and whether they have implemented it in accordance with the
                  OAA. It is intended to provide relevant information to AoA and to
                  Congress as they consider any changes to cost sharing during the
                  current reauthorization of the OAA.
                  The Older Americans Act
                  The OAA was enacted in 1965 to improve the quality of life for older
                  individuals. It created AoA and authorized a range of social service and
                  nutrition programs. AoA distributes funds to States through Title III,
                  Grants for State and Community Programs on Aging. The funds under
                  Title III are divided as follows:
                  o	 Part B funds supportive services, such as transportation, personal
                    care, homemaker, chore, adult day care, and legal assistance.
                  o	 Part C funds nutrition services, such as congregate and home-
                    delivered meals and nutrition education.
                  o	 Part D funds disease prevention and health promotion services.

                  o	 Part E funds the National Family Caregiver Support Program,
                    which was created in 2000 to provide services to family caregivers.

OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                       1
I N T R O D        U C T       I O N


                      These services include respite care to temporarily relieve caregivers
                      from their responsibilities, as well as supplemental services which
                      complement the care provided by caregivers and include such
                      services as home modifications, emergency response systems, and
                      transportation.

                    States’ allotments are based on the number of residents 60 years and
                    older. All older individuals are eligible to receive OAA services, but
                    States must assure that preference is given to those in greatest
                    economic or social need, particularly minority older individuals and
                    older individuals residing in rural areas.
                    The Administration on Aging
                    AoA administers the grants under the OAA. AoA carries out its
                    responsibilities by coordinating with State Units on Aging (State Units),
                    Area Agencies on Aging (area agencies), tribal organizations, and local
                    service providers. AoA is required under the OAA to provide technical
                    assistance and consultation to States with respect to programs for older
                    individuals.1 In 2004, AoA’s budget was $1.37 billion. AoA has
                    10 regional offices that assist States in serving the older population.

                    Each State and U.S. Territory has a State Unit. It is “primarily
                    responsible for the planning, policy development, administration,
                    coordination, priority setting, and evaluation of all State activities
                    related to the objectives of this Act.”2 Most State Units divide the State
                    into planning and service areas and designate a public or private
                    nonprofit agency or organization as the area agency for each area.
                    These agencies develop and implement area plans for their respective
                    planning and service area. Some smaller States, such as Delaware and
                    Rhode Island, are not divided into planning and service areas and do
                    not have area agencies.
                    Cost Sharing Amendments to the Older Americans Act
                    Amendments to the OAA in 2000 allow States to cost share for certain
                    services under Title III. Prior to 2000, States were not allowed to
                    charge fees to individuals using services funded by the OAA.3 However,
                    States were allowed to solicit and collect voluntary contributions from
                    recipients of OAA services.


                    1 42 U.S.C. § 3012(a)(6). 

                    2 42 U.S.C. § 3025(a)(1)(c).

                    3 States were allowed to charge fees to recipients of State or locally funded services. 





 OEI-02-04-00290    COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                                           2
I N T R O D        U C T      I O N


                    As stated in the year 2000 amendments, States are allowed to
                    implement cost sharing for all services except for those explicitly
                    excluded.4 Services that States are allowed to cost share include, but
                    are not limited to, Part B personal care, homemaker, chore, adult day
                    care, assisted transportation, and transportation; Part D disease
                    prevention and health promotion; and Part E respite and supplemental
                    services.
                    Requirements for States that Cost Share
                    The OAA places a number of requirements on States that choose to
                    implement cost sharing.5 These requirements are intended to ensure
                    that cost sharing does not discourage low-income older individuals from
                    obtaining services. Key components of these requirements are listed
                    below.
                    Development of plans. The OAA requires States and area agencies to
                    develop plans before implementing cost sharing. These plans should be
                    designed to ensure that the implementation of cost sharing will not
                    decrease the participation of low-income older individuals (with
                    particular attention to low-income minority individuals and older
                    individuals residing in rural areas) receiving OAA services.
                    Exclusion of low-income older individuals. States may not permit cost
                    sharing by individuals with incomes at or below the Federal poverty
                    line.
                    No denial of services. States must require that area agencies and local
                    service providers not deny services to an older individual due to the
                    individual’s income or the individual’s failure to make a cost-share
                    payment.
                    Sliding scales. States are required to establish a sliding scale based
                    solely on individual income and the cost of delivering services. States
                    cannot consider any assets, savings, or other property owned by older
                    individuals when creating their sliding scales.
                    Accounting and use of cost-share payments. States must ensure that area
                    agencies and service providers establish appropriate procedures to
                    safeguard and account for cost-share payments. States also must


                    4 	 The year 2000 amendments specifically state that certain services, such as information
                      and assistance, outreach, elder abuse prevention, and meals, are excluded from cost
                      sharing.
                    5 42 U.S.C. § 3030c-2.




 OEI-02-04-00290    COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                                            3
I N T R O D        U C T      I O N


                    require area agencies and service providers to use collected cost-share
                    payments to expand the service for which the payments were given.
                    Informing recipients. States must create written materials that explain
                    the criteria for cost sharing, the sliding scale, and the stipulation that
                    services cannot be denied to an older individual due to income or failure
                    to make a cost-share payment. States must require the area agencies
                    and service providers to widely distribute the written materials.

                    The area agencies in States that implement cost sharing may request a
                    waiver to the State’s cost sharing policies when a significant proportion
                    of individuals receiving services in the area have incomes below the
                    threshold established by the State or when cost sharing poses an
                    unreasonable administrative or financial burden on the area agency.

                    The OAA also requires AoA to conduct a comprehensive evaluation of
                    cost sharing to determine its impact on participation rates. This
                    evaluation should be conducted no later than 1 year after the
                    enactments of the year 2000 amendments to the OAA and annually
                    thereafter. AoA must take corrective action if it finds cost sharing has
                    had a disparate impact upon low-income or minority older individuals or
                    older individuals residing in rural areas.6
                    National Aging Program Information System and State Performance Reports
                    AoA collects participation data for many OAA services through the
                    National Aging Program Information System/State Performance
                    Reports (NAPIS/SPR). The NAPIS/SPR contains overall participation
                    and demographic data for certain Title III-B services such as personal
                    care, homemaker, chore, adult day care, and assisted transportation
                    services. For services under Title III-E, the National Family Caregiver
                    Support Program, the NAPIS/SPR includes participation data but not
                    demographic data. The NAPIS/SPR does not contain any data on the
                    number of people participating in cost sharing for any of these services.
                    AoA uses the NAPIS/SPR data to plan and manage activities performed
                    and services provided under the OAA.

                    The State Units gather data from their area agencies and then submit
                    the data to AoA. Some States and area agencies collect additional
                    information on participation not required for the NAPIS/SPR. For
                    example, an area agency may collect demographic data on recipients of



                    6 42 U.S.C. § 3030c-2(d).




 OEI-02-04-00290    COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                      4
I N T R O D        U C T     I O N


                    caregiver support services. AoA conducts a number of checks on the
                    data that States submit to the NAPIS/SPR.
                    Prior Studies
                    OIG conducted two studies about cost sharing for AoA prior to the year
                    2000 amendments to the OAA. The first report in October 1990, “Cost
                    Sharing for Older Americans” (OEI-02-90-01010), assessed States’
                    experiences with State programs for older individuals that provided
                    services on a cost-sharing basis. It found that recipients responded
                    positively to cost sharing, cost sharing was seen as effective and
                    efficient, and extending cost sharing to Title III had strong support.

                    The second report in May 1996, “Cost Sharing Under the Older
                    Americans Act” (OEI-05-95-00170), described States’ practices of cost
                    sharing for State services and discussed potential implementation
                    issues for the expansion of cost sharing to OAA services. This study
                    found that 36 States reported having some kind of cost-share program
                    for at least 1 State-funded service for older individuals. States varied
                    greatly in terms of which services they cost shared, and how
                    responsibilities were distributed among the State Units, area agencies,
                    and service providers. The study also stated that AoA needed to pay
                    special attention to fee schedules, income declaration and verification,
                    billing and collection activities, and policies on payment default before
                    cost sharing is implemented.


                    METHODOLOGY
                    We based this study on data gathered from multiple sources: a written
                    survey completed by State representatives from all 50 States, Puerto
                    Rico, and the District of Columbia; a review of relevant State documents
                    regarding cost-sharing implementation, program revenue, and
                    participation; a review of the NAPIS/SPR and individual State data;
                    and structured interviews with State Unit representatives, area agency
                    officials, and State data officials. For the purposes of this report, we
                    refer to the District of Columbia and Puerto Rico as States.
                    Scope
                    This study focuses on States’ implementation of cost sharing for OAA-
                    funded services. This study does not include States’ experiences in
                    implementing voluntary contributions for OAA services or their
                    experiences in implementing cost sharing for State-funded services.




 OEI-02-04-00290    COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                      5
I N T R O D        U C T     I O N


                    This study addresses Part B and Part E and does not address Part D.
                    Initial research indicated that cost sharing for Part D was rarely, if
                    ever, used. Part C services are excluded from cost sharing.
                    Written State Survey
                    We conducted a written survey of State Unit representatives from all
                    50 States, Puerto Rico, and the District of Columbia to identify the
                    States that have implemented cost sharing for services funded by the
                    OAA. We received responses from all. As discussed below, we reviewed
                    documentation from each State reporting cost sharing to verify their
                    responses.
                    Document Review
                    We reviewed all cost-sharing plans, policies, and procedures for the
                    States that have implemented cost sharing. We identified the services
                    that are cost shared. We also determined how each State has
                    implemented cost sharing and has addressed the requirements for
                    States that choose to cost share. We focused our review on how States
                    determine eligibility; establish sliding scales; collect, account for, and
                    use payments; and inform recipients. We also reviewed relevant
                    financial and service reports from States and area agencies, when
                    available, and any written materials States and area agencies use to
                    explain cost sharing to recipients. Finally, we reviewed training
                    materials produced by AoA and information from AoA’s Web site.
                    NAPIS/SPR and State Data
                    We analyzed all available participation data from the NAPIS/SPR for
                    each of the cost-sharing States. As noted earlier, the NAPIS/SPR
                    contains statewide participation data for OAA services. It does not
                    contain the number of individuals participating in cost sharing. We also
                    collected and analyzed all available participation data for cost-shared
                    services from each of the States, including available area agency data.
                    Structured Interviews with State and Area Agency Officials
                    We conducted structured interviews with officials from the State Units
                    in each of the cost-sharing States. We focused our discussions on the
                    services that are cost shared and how the State and area agencies have
                    implemented cost sharing for these services. We paid particular
                    attention to how each State has addressed the requirements regarding
                    eligibility, sliding scales, accounting for payments, and informing
                    recipients about cost sharing. We also discussed any guidance the State
                    has provided to its area agencies. We conducted 12 interviews from



 OEI-02-04-00290    COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                       6
I N T R O D        U C T     I O N


                    February to March 2005. In this study, we refer to the State Unit
                    representatives we interviewed as “State officials.”

                    We also conducted structured interviews with area agency officials from
                    a purposive sample of area agencies in the States that have
                    implemented cost sharing. We interviewed officials from all cost-
                    sharing area agencies in States that had three or fewer cost-sharing
                    area agencies. We interviewed officials from three selected cost-sharing
                    area agencies in States that had more than three cost-sharing agencies.
                    We selected the area agencies based on States’ estimates of the number
                    of people participating in cost sharing. Specifically, we selected one
                    area agency with high participation, one in the middle, and one with low
                    participation. The interviews focused on the area agencies’ experiences
                    with implementing cost sharing for OAA services. In total, we
                    interviewed officials from 21 area agencies. We conducted these
                    interviews from March to May 2005.

                    We also conducted structured interviews with data officials from all cost
                    sharing States to determine what types of data States report to the
                    NAPIS/SPR. These interviews were conducted from May to June 2005.
                    Standards
                    Our review was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-02-04-00290    COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                     7
Δ       F I N D I N G S 


States’ implementation of cost sharing for OAA               Twelve States have implemented cost
                             services is limited             sharing
                                                             Twelve States have implemented
                      cost sharing for at least one OAA service in at least one part of their
                      State. These 12 States are Alabama, Arizona, Arkansas, Delaware,
                      District of Columbia, Michigan, Minnesota, Montana, Ohio, Puerto Rico,
                      Rhode Island, and Virginia. The 12 States receive approximately
                      $97.5 million through Title III-B and Title III-E, which is about
                      19 percent of Title III-B and Title III-E total grant dollars.7
                      Half of these 12 States have implemented cost sharing in all or nearly
                      all areas of their State.8 Two other States have implemented it in only
                      one area agency in their State, while the remaining four States have
                      implemented it in about half of their area agencies.
                      None of the 12 States has implemented cost sharing for all allowed OAA
                      services
                      None of the 12 States has implemented cost sharing for all OAA services
                      for which cost sharing is allowed. Eight of the twelve States each cost
                      share for one or two different OAA services. The other 4 States each
                      cost share for between 6 and 11 different services.

                      States most commonly cost share for respite services, homemaker
                      services, or supplemental services. Table 1 lists the Title III-B and Title
                      III-E services that are cost shared, as well as the number of States and
                      area agencies cost sharing for them. Nine States cost share for respite
                      services, which offer temporary relief for caregivers. Five States cost
                      share for homemaker services and five States cost share for
                      supplemental services, which complement the care provided by
                      caregivers. Multiple States and area agencies also cost share for adult
                      day care, chore, personal care, and transportation.




                      7 Calculations used fiscal year 2004 Final Allocation for Title III – Grants for State and
                        Community Programs on Aging.
                      8 Note that 3 of the 12 States do not have area agencies. These States are the District of
                        Columbia, Delaware, and Rhode Island.



    OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                                            8
     F    I N D I N G            S         





         Cost-Shared         Table 1: Cost-Shared Services Funded by Titles III-B and III-E
Services Funded by
Titles III-B and III-E                                                                  Number of States that          Number of Area Agencies
                                                                       Service          Cost Share for Service        that Cost Share for Service
                             Title III-B                         Homemaker                                    5*                              31

                                                              Adult Day Care                                  5*                              19

                                                                        Chore                                  5                              16

                                                               Personal Care                                   3                              27

                                                               Transportation                                  3                              13

                                                 Home Maintenance/Repair                                       3                              14

                                                         Medical Assessment                                    1                               8

                                               Care/Medication Management                                      1                               3

                                                      Assisted Transportation                                  1                               5

                                                                       Visiting                                1                               1

                                                      Socialization/Recreation                                 1                               1

                                                                 Respite III-B                                 1                               1

                             Title III-E                         Respite III-E                               9**                              50

                                                       Supplemental Services                                  5*                              23

                                                                  Counseling                                   3                               3

                                                              Adult Day Care                                   1                               4

                                                              Safety Services                                  1                               2

                                                               Transportation                                  1                               2

                                                      Assisted Transportation                                  1                               1

                            * Includes one State that does not have area agencies.
                           ** Includes two States that do not have area agencies.
                           Source: Office of Inspector General analysis of State and area agency documents and interviews, 2005.




         OEI-02-04-00290        COST SHARING    FOR   OLDER AMERICANS ACT SERVICES                                                     9
 F   I N D I N G        S


                       Six of the twelve States report limited participation in cost sharing
                       The number of people participating in cost sharing is limited in at least
                       six States. Officials from 3 States each estimate having 55 or fewer
                       individuals who participate in cost sharing, and officials from 2 more
                       States each estimate having about 350 individuals who participate in
                       cost sharing.9 An official from a sixth State could not give an estimate
                       for the number of individuals cost sharing statewide, but AoA data
                       indicate that it could not be high. This State cost shares for only
                       1 service and the total participation for that service is about
                       130 individuals.

                       The other six States likely have higher numbers of individuals cost
                       sharing. These States are larger and cost share for more services in
                       more areas of their States. An official from 1 of these States estimates
                       that a total of 1,878 individuals participate in cost sharing statewide.
                       Officials from the other five States could not provide estimates.



 The States that have implemented cost sharing               The States and area agencies that
do not always follow OAA requirements for cost               have implemented cost sharing do
sharing that are designed to protect low-income              not always follow key OAA
                                                             requirements that are intended to
                  individuals’ access to services
                                                             ensure that individuals with low
                       incomes can obtain OAA services. Table 2 presents the number of cost-
                       sharing States that have practices that conflict with key requirements.




                       9 Statewide counts may be duplicative because recipients may be receiving multiple
                         services.



     OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                                    10
F   I N D I N G           S         





       Table 2: Cost-Sharing States with Practices Not in Accordance with the OAA Requirements

         State or Area Agency                                                  Cost-Sharing States
                      Practice
                                        A        B       C       D       E       F       G       H        I      J       K       L       Total
       Has not developed cost-
       sharing plan that                                                                                                                   9
                                                 X               X       X       X       X       X       X       X       X
       addresses participation
       of low-income individuals
       Permits individuals with
       incomes at or below the                                                                                                             5
                                                                 X               X               X               X       X
       Federal poverty level to
       cost share
       Denies services or
       makes cost sharing                        X       X                       X                       X       X               X         6
       appear mandatory
       Has not developed a
       sliding scale for all                                     X                                               X       X                 3
       services
       Does not have a policy
       for accounting of cost-                   X               X               X       X                       X       X                 6
       share payments
       Has not created written
       materials that explain           X        X       X       X       X       X       X       X       X       X       X       X        12
       cost sharing


                                            Source: Office of Inspector General analysis of State and area agency documents and interviews, 2005.




                                 Nine States have not developed cost-sharing plans that address the
                                 participation of low-income individuals
                                 The OAA requires States and area agencies to develop plans prior to
                                 implementing cost sharing. These plans should be designed to ensure
                                 that the implementation of cost sharing will not decrease the
                                 participation of low-income older individuals receiving OAA services.10
                                 Four of the twelve States have not developed any plans that address
                                 cost sharing. Five more States have cost-sharing plans or policies but
                                 they do not specifically address the participation of low-income
                                 individuals. The remaining three States have policies that specifically
                                 state that their respective cost-sharing program is designed to ensure
                                 that participation of low-income individuals will not decrease.




                                 10 42 U.S.C. § 3030c-2(c)(2).




      OEI-02-04-00290            COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                                                      11
F   I N D I N G        S


                      Five States permit individuals with low incomes to cost share
                      The OAA prohibits States from permitting cost sharing by individuals
                      with incomes at or below the Federal poverty line.11 However, five
                      States permit individuals with incomes below the Federal poverty line
                      to cost share. Specifically, four States have fee schedules indicating
                      that individuals with incomes at or below the Federal poverty line are
                      expected to make cost-share payments. Another State excludes these
                      individuals from participating in cost sharing for one OAA service in the
                      State but not for another.
                      Half of the 12 States either deny services or make cost sharing appear
                      mandatory
                      Pursuant to the OAA, States that cost share must require that area
                      agencies and local service providers not deny an older individual
                      services due to income or failure to make a cost-share payment.12
                      However, two States deny services due to an individual’s income or
                      failure to make a cost-share payment. An area agency in one State has
                      a policy to suspend services when payments are not made. An official
                      from another State reports that the practice in her State is to deny
                      services when recipients do not pay, although exceptions are sometimes
                      made.

                      An additional four States have collection methods that make cost
                      sharing appear mandatory. In these States, recipients sign cost-sharing
                      agreements. The agreements contain phrases such as “payment
                      required” and “bills are due” and do not explain that services will not be
                      denied for nonpayment. One area agency calls the cost-share payment a
                      “copayment.” This agency also bills the recipient if he or she misses a
                      scheduled service.
                      Three States have not established sliding fee scales for all of their cost-
                      shared services
                      The OAA requires States that cost share to establish a sliding scale to
                      determine payment rates.13 One State has not developed any scales.
                      The official from this State says she was not aware that States were
                      allowed to develop such scales. In this State, recipients are not charged
                      for the first year of service. They are charged half the cost for the
                      second year of service and the entire cost thereafter. Two other States

                      11 42 U.S.C. § 3030c-2(a)(3).
                      12 42 U.S.C. § 3030c-2(a)(5)(E).
                      13 42 U.S.C. § 3030c-2(a)(4).




    OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                      12
F   I N D I N G        S


                      use a sliding scale for some, but not all, of OAA services for which they
                      cost share.
                      Half of the 12 States do not have policies for the accounting of cost-share
                      payments
                      Pursuant to the OAA, States that cost share must ensure that area
                      agencies and service providers establish appropriate procedures to
                      safeguard and account for cost-share payments.14 Six of the twelve
                      States that cost share do not have procedures specifically for the
                      accounting of cost-share payments. Officials from the area agencies in
                      these six States report that they have not received any specific guidance
                      from their State about accounting for cost-share payments.
                      None of the States has created the required written materials on cost
                      sharing
                      Pursuant to the OAA, States that cost share must create written
                      materials that explain the criteria for cost sharing, the sliding scale,
                      and the fact that services cannot be denied to an older individual due to
                      income or failure to make payment. States must require the area
                      agencies and service providers to widely distribute the written
                      materials.15
                      None of the 12 States that cost share have created the written materials
                      to explain cost sharing to recipients. State officials in all 12 States
                      expect their area agencies or providers to inform recipients about cost
                      sharing. The area agency officials whom we interviewed report that the
                      area agencies or providers inform recipients about cost sharing during
                      the intake process or prior to providing the service. However, only 1 of
                      the 21 area agencies we interviewed had written materials that
                      provided detailed information about cost sharing for recipients.



AoA has provided limited guidance to States and              AoA has not provided States with
 State officials are often confused about features           comprehensive guidance on cost
                                                             sharing
                    of cost sharing under the OAA
                                                             AoA has provided limited
                      guidance to States on implementing cost sharing in accordance with the
                      OAA. AoA conducted for its regional offices an initial training session
                      that included training materials that were distributed to them to share

                      14 42 U.S.C. § 3030c-2(a)(5)(B).

                      15 42 U.S.C. § 3030c-2(a)(5)(G).





    OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                     13
F   I N D I N G        S


                      with States. However, the training did not cover key requirements,
                      such as the plans States are required to develop and the written
                      materials that explain cost sharing that States must create. AoA also
                      posted a few frequently asked questions about cost sharing on its Web
                      site; however, the information has since been removed.16 A table
                      comparing the 1992 and 2000 amendments to the OAA is currently
                      available on AoA’s Web site, but it is difficult to find. The information
                      does not readily come up in searches and only appears at the end of
                      several different menu prompts. Lastly, AoA officials report that they
                      provide technical assistance to individual regional offices or States
                      when questions arise.

                      In addition, based on our interviews, we found that AoA officials have
                      limited information about how States are implementing cost sharing.
                      For instance, they have little knowledge about States’ plans regarding
                      cost sharing, their sliding scales, accounting for cost-share payments, or
                      informing recipients about cost sharing.
                      Officials from some State and area agencies do not fully understand cost
                      sharing
                      Officials from several States and area agencies are confused about
                      features of cost sharing for OAA services. Based on our written survey
                      of all States and subsequent interviews with State and area agency
                      officials and our review of relevant documentation, we found that
                      officials from 13 of 52 States did not correctly understand the status of
                      cost sharing in their State. Specifically, officials in eight States
                      confused State-funded services with those funded by the OAA. Officials
                      in three States confused voluntary contributions or their voucher and
                      reimbursement programs with cost sharing. Additionally, officials in
                      two States could not identify which area agencies in their States have
                      implemented cost sharing.




                      16 There are currently two questions about cost sharing posted on AoA’s Web site but they
                        are very general.



    OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                                       14
F   I N D I N G         S      




               AoA’s participation data cannot be used to             AoA is required to conduct
                 determine the impact of cost sharing on              an annual evaluation of
                                                                      cost sharing to determine
                                        participation rates
                                                                      its impact on participation
                       rates, with particular attention to low-income and minority older
                       individuals and older individuals residing in rural areas.17 AoA collects
                       participation data for many OAA services through the NAPIS/SPR. As
                       mentioned previously in this report, the NAPIS/SPR does not contain
                       information specific to cost sharing but it does contain the total number
                       of people participating in many of the services that are cost shared.
                       AoA uses the NAPIS/SPR data to plan and manage activities performed
                       and services provided under the OAA.

                       We found that States report data in the NAPIS/SPR differently and that
                       the demographic data in the NAPIS/SPR are incomplete. As a result,
                       the data in the NAPIS/SPR do not present a complete picture of
                       participation and, therefore, cannot be used to measure any impact that
                       cost sharing might have on overall participation or on participation of
                       low-income individuals and other subgroups specified in the OAA.
                       States report participation data in the NAPIS/SPR differently
                       Interviews with data officials in the 12 cost-sharing States show that
                       States report participation data in the NAPIS/SPR differently.
                       Specifically, data officials in seven States say that they include
                       recipients of services funded solely by State or local entities in addition
                       to recipients of OAA-funded services. In contrast, data officials in the
                       other five States say that they do not include recipients of services
                       funded solely by State or local entities when reporting to the
                       NAPIS/SPR.
                       The differences in reporting may be due to conflicting instructions that
                       AoA provides to States. AoA officials report that they instruct States to
                       count all recipients receiving services through the State Units, whether
                       the services are OAA-funded or not. They note that reporting
                       participation in this way is in line with the mission of the OAA to
                       leverage these funds with other State and local money. At the same




                       17 42 U.S.C. § 3030c-2(d).




    OEI-02-04-00290    COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                       15
F   I N D I N G 
S


                      time, AoA’s Web site instructs States to count recipients of services that
                      are funded in whole or in part by the OAA.18
                      Demographic data in the NAPIS/SPR are incomplete
                      At the time we reviewed the data, we found that the demographic data
                      in the NAPIS/SPR were incomplete. Although AoA has taken steps to
                      resolve this issue, the NAPIS/SPR data do not currently provide a
                      complete picture of participation for subgroups of the population.
                      Therefore, the data cannot be used to measure whether cost sharing has
                      had any impact on participation for the subgroups specified in the OAA,
                      including low-income individuals.

                      Specifically, we found that the original design specifications for the
                      NAPIS/SPR required States to omit the demographic data for recipients
                      missing any data element. Consequently, States had to delete all
                      characteristics for a record that was missing an element such as race,
                      ethnicity, disability status, or rural residence. AoA officials believe that
                      this design specification resulted in significant undercounting of clients
                      in the client-detail tabulations. These officials also report that they
                      have no way of determining which characteristics were most affected by
                      the design specification.19 Although AoA has changed the design
                      specifications and the NAPIS/SPR now retains records with missing
                      data elements, AoA officials stated that they “. . . do not believe that any
                      of the quantitative program data now available can be employed to
                      make inferences about the impact of cost sharing on program
                      participation by vulnerable individuals.”20
                      We also found that the data in the NAPIS/SPR do not include
                      demographic information for all States. AoA was required to grant
                      States waivers from submitting demographic data for Title III-B
                      services. 21 AoA officials report that they have not received this
                      information from more than 40 States in any fiscal year. As of 2005,
                      however, AoA is no longer required to approve the waivers.


                      18 U.S. Administration on Aging, Instructions For Completion of Title III and VII SPR.

                        Available online at http://www.aoa.gov/prof/agingnet/napis/spr/spr_guidance/newn97.asp.
                        Accessed August 10, 2006.
                      19 Letter from AoA to Office of Evaluation and Inspections (January 24, 2005).
                      20 Ibid.
                      21 AoA was required to grant States waivers from submitting demographic data for
                        recipients of Title III-B services by the initial Office of Management and Budget
                        conditions of approval for the NAPIS/SPR data collection and the Paperwork Reduction
                        Act of 1995.



    OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                                        16
F   I N D I N G        S


                      Further, the NAPIS/SPR does not include demographic data for Title
                      III-E services. States have not been required to report demographic
                      data for any Title III-E services, which include respite and
                      supplemental services, two of the most commonly cost shared services.
                      AoA officials report that States must now report certain demographic
                      data for recipients of Title III-E services.
                      States report that area agencies commonly have problems collecting
                      accurate participation data
                      State data officials in the nine cost-sharing States with area agencies
                      report that area agencies commonly have problems collecting and
                      reporting accurate participation data. The data officials note problems
                      with limitations of their data systems, difficulties interpreting data
                      definitions and requirements, and an inability to collect complete data.
                      Data officials in these States report that they often have to estimate the
                      number of persons served by the area agencies due to the problems their
                      agencies experience collecting accurate data. AoA officials acknowledge
                      that the NAPIS/SPR data are not consistently available for area
                      agencies.22




                      22 Letter from AoA to Office of Evaluation and Inspections (January 24, 2005).




    OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                                17
Δ   R E C O M M E N D A T I O N S                                     


                  States’ use of cost sharing for OAA-funded services is limited. Of the
                  States that cost share, not all have followed OAA requirements for cost
                  sharing that are designed to ensure that low-income individuals have
                  access to services. To date, AoA has provided limited guidance to States
                  about implementing cost sharing. Also, AoA’s participation data cannot
                  be used to determine the impact of cost sharing on participation for low-
                  income individuals and other groups targeted by the OAA. Based on
                  these findings, we recommend that AoA:
                  Ensure that States’ cost-sharing practices comply with requirements
                  designed to protect low-income individuals’ access to services. AoA
                  should address State and area agency practices that permit low-income
                  individuals to participate in cost sharing. AoA should also address
                  State and area agency practices that deny services to older individuals
                  due to income or failure to make a cost-share payment, as well as
                  practices that make cost sharing appear mandatory. In addition, AoA
                  should address the States’ lack of cost-sharing plans, sliding fee scales,
                  policies for accounting for payments, and written material that explain
                  cost sharing.
                  Provide additional guidance to States about implementing cost
                  sharing in accordance with the OAA. AoA should provide additional
                  guidance to States regarding how to implement cost sharing in
                  accordance with OAA requirements. The guidance should address
                  issues such as (1) developing plans to ensure that the participation of
                  low-income individuals will not decrease with the implementation of cost
                  sharing; (2) excluding low-income individuals from cost sharing;
                  (3) prohibiting the denial of services; (4) establishing sliding scales;
                  (5) developing procedures to account for cost-sharing payments; and
                  (6) preparing written materials to inform recipients about cost sharing.
                  AoA should also develop additional strategies to keep States informed
                  about these issues.
                  Improve the quality of the NAPIS/SPR data so that any effects of
                  cost sharing can be measured. AoA should improve the quality of its
                  data to measure any future impacts cost sharing may have on
                  participation rates, as required by the OAA. During the course of this
                  study, AoA has addressed some of the data problems. Specifically, the
                  NAPIS/SPR now retains records with missing data elements; the
                  NAPIS/SPR now collects some demographic data for recipients of Title
                  III-E services; and AoA is no longer required to approve waivers to



OEI-02-04-00290   COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                    18
R   E C O         M M E N D A T                I O N       S


                     States. However, AoA has not addressed the differences in State
                     reporting.

                     When addressing these differences, AoA needs to give clear and
                     consistent instructions to States and consider whether to continue
                     directing States to report information for all services, including those
                     funded solely by State or local entities. If the NAPIS/SPR includes data
                     about non-OAA-funded services, then AoA needs to consider how it will
                     determine any effects of cost sharing on participation in OAA programs
                     and services, as required by the OAA.

                     In addition, the inconsistency of AoA’s participation data has
                     implications beyond cost sharing. This study focuses only on cost
                     sharing, but the differences in data reporting raise questions about how
                     AoA can use the data to effectively plan and manage activities funded
                     under the OAA. This broader issue affects AoA’s capacity to manage all
                     aspects of these services, not only cost sharing.


                     AGENCY COMMENTS
                     AoA provided comments on the draft report. In general, AoA agrees
                     with our findings that cost sharing is limited and that States are
                     confused about cost sharing. AoA states that it has taken many steps to
                     educate the Aging Network on cost sharing and does not agree with our
                     finding that it has provided limited guidance to States. AoA also states
                     that our observations about NAPIS/SPR are outside the scope of the
                     study and that it has made several improvements to NAPIS/SPR over
                     the last 5 years. In response to our recommendations, AoA notes that it
                     will follow up on our observations and correct instances of
                     noncompliance with the provisions of the OAA. AoA also plans to
                     provide additional guidance to States on an ongoing basis and post more
                     information on its Web site. The full text of the comments is included in
                     Appendix A.


                     OFFICE OF INSPECTOR GENERAL RESPONSE
                     Where appropriate, we have made changes to the report based on AoA’s
                     comments.

                     Because the OAA requires AoA to determine the impact of cost sharing
                     on participation rates, and NAPIS/SPR is the only data AoA has on
                     participation, we believe that it is necessary to include NAPIS/SPR in



OEI-02-04-00290      COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                   19
R   E C O         M M E N D A T               I O N       S


                     any discussion about whether cost sharing has had an impact on
                     participation rates.

                     We recognize that AoA has made several improvements to NAPIS/SPR
                     over the last 5 years, many of which are noted in the report. However,
                     despite these improvements, we found that the States that cost share
                     report participation data in the NAPIS/SPR differently and include
                     different populations in their counts. This issue is important because it
                     has potential implications beyond cost sharing. These data provide
                     essential information for AoA, including performance outcome
                     information required by the Government Performance and Results Act
                     and the Performance Assessment Rating Tool.




OEI-02-04-00290      COST SHARING   FOR   OLDER AMERICANS ACT SERVICES                    20
APPEND X
      Agency Comments


           r-""~
                      DEPARTMENTOFHEALm &.HUMA SERVICES
          ( /t                                                                                   Ofce of the Assistnt Secrtary

          ~'-                                                                                    Admfn.!.tration on Aging

                                                                                                 Washington D.C. 20201




                                                                                                          0-.,
                                                               JUN ! 2 2005
                                                                                                           ..    æ
                                                                                                                 0"     'J
                                                                                                           n     ,
                                                                                                                 (":?
                                                                                                        0";               'i
                    TO:              Daniel R. Levinson
                                                                                                        fTC;     l'.'    :)
                                                                                                        fT-      cr       ..
                                                                                                                            :
                                     Inspector Gener /. 1' Î /'~, A~. .                                 :.):-"
                                                                                                        :::
                                                                                                        ir.:
                    FROM:            EdwiL. Wa1er~                                                         c.
                                                                                                           -I
                                                                                                                 ,--
                                                                                                                  ..    .J
                                                                                                                          i

                                     Deputy Assistat Seceta for Policy and Progrms                         0 ui
                                                                                                           ~
                    SUBJECl:        Adminstron onAgig Comments in Response to
                                            Report: "Cost Shang for Older Amerca Act Serice,"
                                    OIG Draft
                                    OEI-02-04-00290


                    Summary of     Comments

                    The Administrtion on Agig (AoA) recgnze the crtical importce of assessin
                   progr      imlemenon, and more importtIy, progr perormce caed out under
                    the Older Amerca Act In regntion of
                                                                   the requiements of   the Older Amerca Act
                   (OM), and the evdent cistace th
                                                         imlementation of cost shg under the OAA
                   wa ver   limite AoA requested th Offce of Inpector General (OIG) to undere an
                   !'aluaton of cost sharng for OM serce.

                   In commentig on the findings of the OIG related to cost
                                                                           shng under the OM, AoA
                   wants to acknowledge the diffculty 9fthe tak we reuesed the OIG to perform. AoA
                   knew that implementation of cost sharg under the OM was ver limited, and felt tht it
                   would remain so even though cost sharng for related statefuded progrs was
                   common. We believe tht the OIG work confied that implementaton of cost shag
                   under the OM is and wi reai ver liited Ver few staes have implemented it for
                   OAA fuded progr, and for those who have implemented it at all, the level of
                   implementation was usualIy ver limted both in tenu of coverge across the state an of
                   servce included It should be D9ted that the OM does not reuie sttes to implement
                   cost shg, so this outcome does not violate the intent of
                                                                            the OM in any way. We had
                   hope to lear more about the barers that have caused sttes to choose not to tae
                   advatage"ofths new provision. However, that type of anlysis did not oc. As a
                   result, the review did Dot provide the tye of
                                                                    information that would sere AoA and the
                   aging network to help to modifY program requirements of
                                                                      the Act in a way th would
                   allow the OM to be mode, and allow the network to tae" advantage of the positive
                   aspects of cost shag, whie protecting the nees of elderly individuals at greaest social
                   and economic risk.

                   AoA appreciates the obsertions of        the OIO related to conce about compliance by the
                   States with the cost shang provions of
                                                                the OM. However, we do not believe that the




OEI.02.04.00290      COST SHARING FOR OLDER AMERICANS ACT SERVICES                                                               21
APPEND X



                   Page 2 - Daniel R. Levison

                   stdy was adequate to ma generalizatons about the impa of state and local actions
                   across OM programs. Dat provided by the OIG on the numbe of
                                                                                               individus
                   parcipat in cost sharg clealy indicae that implementaton ha
                                                                                                not bee exteive
                   enough to have had a signficat effec on any broad OAA client population grup. The
                   OIG da indicate th cost sh under the OM Isnot ocng to any signficat
                   degree for any progr activity. AoA wil follow up on the obseratous of the OIG to
                   corr,ect ince of non-compliance with the provisions of            the OM where they may
                   exst. We also    believe that if fuer implementation of        cost sharng occ, .it    will
                   requie ongoin confirmation of compliance with the provisions of the OM.

                   We apprete th the    stdy was able to correct may ofits ealier obseratons
                   assoiated with the Natonal Agig Progr Inormaton System (NAlIS). We believe
                   th the diffcuties the study encounter reflec litaons with the methodlogy and
                  the limts of implementtion of cost shg, an not problem with the NAPIS system.
                  The NAPIS da    system is, in fact, well maged and cordinated AoA works ver
                  closely with representaves of ste and ar agenes on agig to ensre th
                                                                                                         th data
                  colIected under the NAPIS system is focused on chctèrcs an data th
                                                                                                         supprt
                  crtica and necesa program management acvity. In the pas five yea, AoA the
                  state, area agencies, nationa assoiatons of stat an ar agencies, and highly
                  expeence OAA progr data vendors have put signficat effort into the improvement
                  of OM prgr dat and ths signfica and ext~ve collabraon will Continue.
                  State implementadon of rost-sharig

                  Based on AoA's experence in workig with the sttes to imlement cost sharng and
                  other provisions under the Act we believe that many        of   the conclnsonsofthe stuy
                  about Sta exection of the cost-sharg provisions do not adequately reflect th(:
                  complexity of  the issue under the Older Amercas Act nor do th give a complete
                  pictue of   how the states ar implementing Cost-shag.

                  Firt, a required element under the OM of        Sta an Area plan is.th they enure the
                  parcipation of low-income individuals thughout thei repetive plan in ALL OAA
                  serce, includg those tht are cost shared (see State plan atchmentsA&B). AoA
                  does not believe it is nees or effecve for States at tl tie to set up a Separte plan
                  relat to cost-sharg, becuse ther is litte evdence of plans to mae it extensive, and
                  becuse broader prograr dat indicate signficat          protecons of client populations. The
                  data below indicate tht States and AAs are effecvely addsing the tagetig of
                  serce to individuals with low-incomes thughout thei resve State and Ar plan
                          10% of U.S. elders are poor; 28% ofOAA cllents are poor.
                          16% ôf elders are miority; 22% of clients are miority.
                          24% of U.S. elders reside in rural area; over 21% of OAA cUents are rural.

                  Second, under the Older Amercan Act, States, AA and providers are reuired to
                  allow older individuals to contrbute to the cost of    thei servce. This requireent        often
                  creates diffcuties for State attptin to implement cost sharg. On the one hand, the
                  cost shag provision doe not allow for charg fee to low-inc'me tndividus, while




OEI.02-04.00290     COST SHARING FOR OLDER AMERICANS ACT SERVICES                                                    22
APPEND X



                   Page 3 - Danel R. Levinson

                   other provisions requi title II provider to give all parcipats the oppty to
                   voluntaly contrbute to the cost of their serice. Melding these provisions togeter
                   under a syste where parcipats self declar thei incomes ca get trck and takes
                   extr plang. Ths is an isue that AoA is
                                                                   trng to addres fuer in follow-up
                   gudace to Regional AoA offce and State agencies on agig. AoA plas to
                                                                                                          expand
                   previous "frequently asked questions" related to cost-shag, post the inormation on its
                   website, and prvide additiona guidace to the States on an ongoing basis for Staes that
                   are cost sharg.

                  Th may States have cost shag provions under thei own stae-funded progrs .
                  or frm other source. When dicussing cost sharng actvities with States, it is AoA's
                  expeence tht States someties confu            the cost shg protocols of other fuding
                  soures with those of OM progt, parcularly give the fidig that in 6 of the 12
                  stats which implement cost sharg under the OAA fewer th 350 inviduas
                  partcipate. These data indicate th the larger. issue may not be confion by State when
                  implementing cost sharng, but rather tht co shag uner the OM barly exist
                                                                                                               at all.
                  Fourt many States have indica tht they wan to be able to us cost shang to
                  dwidling reures for a grwig population of
                                                                                                             expand
                                                                       seniors, an tht they want to be able to
                  merge OM progt with their own succfu State fuded cost shang progr. If
                  States are incorrectly implementi CO.st sharg under the OAA one of the n: resous
                  may be becus ,co sha proviions under the OM do not genery meld well with
                  their own cost sharg program.

                  AoA guidance to the States on cost-sharig.

                  Whle we appreciate the OIG's recommendations for how AoA ca improve the level of
                  trni on cost sharng under the OM, we do not support the reprt's conclusion that
                  little guidace has bee provided. Since the enactment of cost shag under
                                                                                      the OAA
                  AoA has taen seeral stregies and actons to educate the agig serce netork on
                  this prvision, including the followig actvities:
                      · 'AoA developed a PowerPoint preention, and conducted a videonfernce
                          dug thefut six months following the enactent of
                                                                                     the provision. (4/2001)
                     · Regional Offces used the PowerPoint preention with the Staes in their region
                        durng plaied trning sessions, and made copies of
                                                                         the preenation avaiable to
                         State Agencies.
                     · AoA conducted a conference cal with Regiona AoA offces dedcated to the
                         discussion of   cost sharng; cost shang question were fielded by AoA durng
                         other conference cals, as neeed. (216/02)
                     · AoA followed up the conference call with an email to Regional offce givig
                         fuer direcon on cost shar and providing a copy of
                                                                                          the statutory language.
                         (217/02)
                     · AoA developed "frequently asked questions" (FAQs) on aU of
                                                                                                the chages in the
                         2000 amendments, including cost sharg, and made those F AQs available on the
                         website for over two year. As mentioned above, AoA plan to expand the FÀQs
                         and post again on the website.




OEI-02.04.00290     COST SHARING FOR OLDER AMERICANS ACT SERVICES                                                        23
APPEND X



                   Page 4 -' Danel R. Levinson


                       · AoA worked with the Regional Offce to conduct a surey of
                                                                                              States relatd to
                           thei cost sharg actities. (9/200)
                       · Regional Offce have contiued to provide technica assistace on cost sha
                          (along with comprehenive TA on the ente OM) durng orientation training
                           with new Stae agency staff and durg provider, AM and State agency traing
                           conferecemee, as approprate.
                       · AoA contiues to wor with Regional Offces to resnd to cost shag inquires,
                           as needed. (1112000 to preent) Docuenon of cae-by-casegudace is
                           majntaed at Regional Offces of AoA in trp report and email corrpondence.

                   Quality ortheNAPISISPR Data
                   The spec intent of    the study requested was to beter underitad Cost shag unde the
                   OM, and not to provide anecota obseatons abut the overll data and informaton
                   available frm NAPIS/SPR. On ths latter point, the rert went well beyond the intent of
                   the sty  an the consnts of     its own metodologica design and led to obseratons
                   that faed to incorprate significat relevant data AoA expres the followig serious
                  conce abut the validity of the study methodology and conclusions regardig
                  NAPIS/SPR, although we do recgne ,that the report now acknowledgeS the cotion
                  of some of those obseations.
                      · Ther is no valid basis for making generons about an enterrise-wide,
                          national information system in a study tht addesses the lite implementaon
                          of cost sharg. Given the timig of the legislative prvision, the fa that
                          implementaon was discetona, and the clea effec that implementaon Was
                          severely limted there should have bee no expecttion that rertng on cost
                          shag would be incorporated into NAPIS.
                      · In the 12 sttes where some level of cost shag was implemented the number of
                          perons parcipating in cost sharg (a tota numbe of pacipants is not
                          provided but individua sttes reortedly rage frm 55 peons to i ,878 persons)
                          is a ver small fraction of   the tota number of   perons seed under the OM in
                         these same stes (over 1.4 milion peons).
                      · Approxily 50% of these states have implemented cost shag in only limited
                          ars of   the state and none has implemented cost sharg for all of
                                                                                                the allowable
                          Title II serce.
                      · The NAPIS/SPR has never bee nor will it be, designed as a client tracking
                          system. It is desgned to provide broad agggated progr and management
                          inormaton to AoA, consistent with what ha been deeed accptale and
                          adequate, and approved by the Offce of Maagement and Budget (OMB) for
                          AoA. SUAs, AAs and providers fruently collect and maita addtional
                          client level information for loc management purses, but this data is not to be
                          conf with the aggrgated NAPIS/SPR format aIlowed for AoA by OMB.

                  Whle the report offere a broad recmmendaton for AoA to ".. .improve the quaty of
                  its da.. .," it faled to identifY the ver specific and extenive data imprvement effort
                  that have character the NAPIS system over the last five yea. AoA, the National
                  Association of State Units on Aging, a major nationaÍ NAPIS data vendor, other




OEI.02.04-00290     COST SHARING FOR OLDER AMERICANS ACT SERVICES                                                24
APPEND X



                    Page 5 - Daniel R. Levison

                    experence dat constats, and numerous individua state and area agencies have bee
                    actively enged in the modemíaton and iiprovement of
                                                                                      the   NAP   IS da syst over
                    the last five yea, and th effort     contiues. In the recet, signficat, and OM:-
                    approved revision of    the NAPIS data reuirements (and        reprtg system) that have
                    taken effec for the FY 2005 reportng perod, AoA and its data
                                                                                            improvement parers
                    sought formal input frm the entie aging netork of state and ar agcies no fewer
                   than four ties. AoA and its da improvement coalition
                                                                                    have continued to pur the
                   long-te modertion of            data programs through the NAPIS Dat Magement Study,
                   . which aga has puued inut and paricipation in a varet of
                                                                                            meda from agig netork
                   entities.

                   The stuy faled to identify these effort and intiatives becus thes efforts are
                   signficatly beyond the scope of       the sty the OIG was eiigagedto pero:i. AoA ha
                   formaly     occpied signficat professional      entities that are qualified to gude the Agency
                   and the Netork in puring improvements to these importt daa operations, and AoA
                   wilI look to these entities for recmmendatons related to the imprvement of
                                                                                                        the NAPIS
                   system. To effectively     manage and rert on program actvities, AoAhas grtly
                   enced acc to tiely, ace, and integrte data an inormation. AoA has taen
                   several importt steps to ensue the avaiabîlty of
                                                                              ths essential inormation: (I)
                   development ofthe Nationa Agig Program Inormtion Syste and the State Progr
                   Reprt (1995) as revised and imlemen for FY 2005 reprtng, (2) proviion of
                   softar support and
                                            tr (State Reportg Tool - SR1) to falitate state submiion
                   of the SPR to en tiely and accate SPR inormaton, and (3) extensive procedural
                  gudance on the use of thes tools and contiuay updag responses to Frequently
                  Asked Questions (F AQ) frm the Agig Netor NOTE: The insctons discussed in
                   the last paragrph on page 15 and footnote #18, reference the previous verion of
                   NAPIS/SPR. The FY 2005 NAPIS/SPR
                   (http;llww.aoa.irv/Drof/airgletAPIS/docsSPR_Modified_Fonn_1 i .08.04'Pd~ and F AQs
                   (htt:llww.a6uov!urotìaiiiretIAPIS/SPRlSPR irdaceIAPIS-FAOs03032006.d ) ar the
                  . most recnt and correc versions of  these documents These developments cleary
                  provide detaled rertirg inrmaton and insctions regag the inclusion of servces
                  fuded thugh the OM, stte genera! revenue and other source.

                  The SPR provides essential informon on the charactenstics of clients including:
                  demograplùc and diility dat; the tyes and levels of serce, such as the number of
                  persns serce and the unts of servce provided by the network on aging; expenditues
                  of OM fuds and from other sourcs; and adstrive information about SU As and
                  AAs, including staff      levels and rensibilties, as welI as the number of
                                                                                                     volunteer
                  providing support The 010 reor (page 16) states tht "...dat in the NAPIS/SPR do
                  not include (client) demographic data information for al states." Whe some sta have
                  not prviously reported client demogrphic data i i of
                                                                 the 12 states tht have
                  implemented cost sharng have submitt some level of client deogrhic inormation.
                  As required under former OAA stattory authority, the 12th state recived a waiver of
                  demographic reportng responsibilty. Such waiver were reqired by OMB conditions of
                  approval for the former verson of      the NAPrS system.




OEI.02-04.00290     COST SHARING FOR OLDER AMERICANS ACT SERVICES                                                   25
APPEND X



                   Page 6 - Daniel R. Levinson


                   The SPR dat provdes essetial infonntiOii for AoA. These data have provided
                   signficat peormance outcome inormon requied by the GovenentPerformance
                   and Rests Act (GPRA) an the Perormce Assssient Rati Tool (PART). AoA's
                   abilty to recently receve a P ART score of8 i, and OMB lùgbghng of the quaity of
                   AoA perormance mea in the FY 2005 Preident's Budget is bas to a consderable
                  degee on obtaing nec managent inormation from NAPISISPR.

                  As pa of contnuous quality imovement and to fuer refie
                                                                                    the data reprtg
                  procees in the Agig Network AoA enter into a coopetve agrent with the
                  National Associaton of     State Units on    Agig (NASUA) to identify ways for AoA, SUAs,
                  and MA to imprve the effciency and effecven of
                                                                              rertg and to reuc the
                  burden of informaton colIecon. The stdy is focus on cost-effecve ways to:


                  i. Defie the common data requents necsa for policy and management
                  decision makg, includg stte and loca initiatives (includig advoccy) so as to limit
                  feder requien to a sub-set of ste and local reuients .
                  2. Elinat the need for elderly individuals
                                                           and cagiver to provide identifyng
                  inormation repedy to varous serce prviders
                  3. Improve data colIection methods and syss so as to insure obtanig
                  unduplica coun ofíndividuas acrss serce prvide and gegrhic locatons
                  4. Reduce        the expee of report sysem          fragmentation by tag advatage of
                  network ecomies of scae for informaton
                                                                   sytem development and management
                  without compromiin competition in the maretlac

                  Whle stilI in the dr stages, the report wil assis AoA in fuerng the integty of data
                  and informaton    supplied by the Agig Netork.




OEI-02.04.00290    COST SHARING FOR OLDER AMERICANS ACT SERVICES                                              26
APPEND X




                                                            ATTACHMENT A

                          Listing of State         Plan Assurances and Required Activities
                                       Older Americans Act, As Amended in 2000
                  By signing this document, the autorized Dffcial commits the State Agency
                                                                                                  on Aging to
                  performing all   listed assurances and required activities.

                  This attachment, along with requirements listed in the State Plan Guidance Program
                  Instruction (PI) and attachment 8 State Plan Provisions and Information Requirements,
                  make up the package of instrctions for development of State Plans.


                  ASSURANCES
                  Sec. 305(a)- (c), ORGANIZATION

                  (a)(2)(A) The State agency shall, except as provided in subsection (b)(5), designate
                  for each such area (planning and servce area) after consideration ofthe views offered
                  by the unit or units of general purpose local government in such area, a public or
                  private nonprofit agency or organization as the area agency on aging for such
                                                                                                     area.
                  (a)(2)(8) The State agency shall provide assurances, satisfactory to the Assistant
                  Secretary, that the State agency wil take into account, in connection with matters of
                  general policy arising in the development and administration of the State plan for any
                  fiscal year, the views of recipients of supportive sGrvces or nutrition services, or
                  individuals using multipurpose senior centers provided under such plan.

                  (a)(2)(E) The State agency shall provide assurance that preference wil be given to
                  providing services to older individuais with greatest economic need and older
                  individuals with greatest social need, with particular attention to low-income minority
                  individuals and older individuals residing in rural areas and include proposed methods
                  of carring out the preference In the State plan.

                  (a)(2)(F) The State agency shall provide assurances that the State agency wil
                  require use of outreach efforts described in section 307(a)(16)..

                  (a)(2)(G)(ii) The State agency shall provide an assurance that the State agency wil
                  undertake specific program development, advocacy, and outreach efforts focused on
                  the needs of low-income minority older individuals and older individuals residing ;n
                  rural areas.

                  (c)(5) In the case of a State specified in subsection (b)(5), the State agency and area
                  agencies shall provide assurance, determined adequate by the State agency, that the
                  area agency on aging wil have the ability to develop an area plan and to carr out,




OEI.02-04.00290        COST SHARING FOR OLDER AMERICANS ACT SERVICES                                            27
APPENDIX




                   directly or through contractual or other arrangements, a program in accordance with
                   the plan within the planning and service area.


                  States must assure that the following assurances (Section 306) wil be met by its
                  designated area agencies on aaencies. or bv the State in the case of sln(:le
                  planning and service area states.
                   Sec. 306(a), AREA PLANS

                  (2) Each area agency on aging shall provide assurances that an adequate proporton,
                  as requited under section 307(a)(2), of the amount allotted for part B to the planning
                  and service area will be expended for the delivery of each of the following categones of
                  services-
                  (A) services associated with access to services (transportation, outreach,
                  information and assistance, and case management services);
                  (B) in-home services, including supportive services for familes of older individuals
                  who are victims of Alzheimer's disease and related disorders with neurological and
                  organic brain dysfunction; and
                  (C) legal assistance;
                  and assurances that the area agency on aging wil report annually to the
                  State agency in detail the amount of funds expended for each such category
                  during the fiscal year most recently concluded.

                   (4)(A)(i) Each area agency on agil1g shall proVide assurances that the area agency on
                   aging wil set speCific objectives for providing services to older individuals with greatest
                   economic need and older individuals         with greatest social need, include specific
                   objectives for providing      services to low-income minority individuals and older
                   individuals residing in rural areas, and include proposed methods of carrng out the
                   preference in the area plan.

                   (4)(A)(ii) Each area agency on aging shall provide assurances that the area agency
                   on aging wil include in each agreement made with a provider of any servIce under
                   this title, a requirement that such provider will-
                   (I) specify how the provider intends to satisfy the service needs of low-income minority
                   individuals and older individuals residing in rural areas in the area served by the
                   provider;
                   (II) to the maximum extent feasible, provide services to low-income minorit
                    individuals and older individuals residing in rural areas in accordance with their need
                    for such services; and
                    (ill) meet specific objectives established by the area agency on aging, for providing
                  . services to low-income minority individuals and older individuals residing in rural
                    areas within the planning and service area.

                   (4 )(A)(ii) With respect to the fiscal year preceding the fiscal year for which such
                   plan Is prepared, each area agency on aging shall-


                                                                                                              2




OEI.02.04.00290         COST SHARING FOR OLDER AMERICANS ACT SERVICES                                             28
APPEND X




                  (I) identify the number of low-income minority older individuals and older individuals
                  residing in rural areas in the planning and service area;
                  (II) describe the methods used to satisfy the servce needs of such minority older
                  individuals; and
                  (III) provide information on the extent to which the area agency on aging met the
                  objectives described in clause (a)(4)(AXi).

                  (4)(BXil Each area agency on aging shall provide assurances that the area agency
                  on aging wil use outreach efforts that wil identif individuals eligible for assistance
                  under this Act, with special emphasis on-
                  (I) older individuals residing in rural areas;
                  (II) older individuals with greatest economic need (with partcular attention to
                  low-income minority individuals and older individuals residing in rural areas);
                  (III) older individuals with greatest social need (with particular attention to low-income
                  minority individuals and older individuals residing in rural   areas);
                  (IV) older Individuals wit severe diSabilties;
                  (V) older individuals with limited English-speaking abilty; and
                  (Vi) older individuals with Alzheimets disease or related disorders with neurologicai and
                  orgánic brain dysfunction (and the caretakers of such individuals);
                  and inform the older individuals referrd to in (A) through (F), and the caretakers of such
                  individuals, of the availabilty of such assistance.

                  (4)(C) Each area agency on agency shall provide assurance that the area agency on
                  aging will ensure that each activity undertaken by the agency, including planning,
                  advocacy, and systems development, wil include a focus on the needs of low-income
                  minority older individuals and older individuals residing in rural areas.

                  (5) Each area agency on aging shall provide -assurances that the area agency on
                  aging wil coordinate planning, identification, assessment of needs, and provision of
                  servcès for older individuals with disabilities, with partcular attention to individuals
                  with severe disabilties, with agencies that develop or provide services for individuals
                  with disabilties. .
                  (9) Each area agency on aging shall provide assurances that the area agency on
                  aging, in canying out the State Long-Term Care Ombudsman program under section
                  307(a)(9), wil expend not less than the total amount of funds appropriated under this
                  Act and expended by the agency in fiscal year 2000 in canying out such a program
                  under this title.

                  (11) Each area agency on aging shall provide information and assurances concerning
                  servces to older individuals who are Native Amencans (referred to in this paragraph
                  as "older Native Americans"), including-
                  (A) information concerning whether there Is a Significant population of older Native
                  Americans in the planning and service area and If so, an assurance that the area
                  agency on aging wil pursue activities, including outreach, to increase access of those
                  older Native Americans to programs and benefits provided under this tile;


                                                                                                               3




OEI-02-04.00290         COST SHARING FOR OLDER AMERICANS ACT SERVICES                                              29
APPEND X




                  (B) an assurance that the area agency on aging wil, to the maximum extent
                  practicable, coordinate the services the agency provides under this title with services
                  provided under title VI; and
                  (C) an assurance that the area agency on aging will make servces under the area
                  plan available, to the same extent as such services are available to older individuals
                  within the planning and service area, to older Native Americans.

                  (13)(A) Each area agency on aging shall provide assurances that the area agency     on
                  aging wil maintain the integrity and public purpose öf services provided, and service
                  providers, under this title in all contractual and commercial relationships.

                  (13)(8) Each area agency on aging shall provide assurances that the area agency
                  on aging wil disclose to the Assistant Secetary and the State agency-
                  (i) the identity of each nongovemmental entit with which such agency has a contract
                  or commercial relationship relating to providing any service to older individuals; and
                  (ii) the nature of such contract or such relationship.

                   (13)(C) Each area agency on aging shall provide assurances that the area agency will
                   demonstrate that a loss or diminution in the quantity or quality of the services
                   provided, or to be provided, under this title by such agency has not resulted and wil
                   not result from such non-govemmental contracts or     such commercial relationships.

                  (13)(0) Each area agency on aging shall provide assurances that the area agency
                  wil demonstrate that the quantity ör quality of the services to be provided under this
                  title by such agency wil be enhanced as a result of such non-governmental contracts
                  or commercial relationships.

                  (13)(E) Each area agency on aging shall provide assurances that the area agency
                  wil, on the request of the Assistant Secretary or the State, for the purpose of
                  monitoring compliance with this Act (including conducting an audit), disclose all
                  sources and expenditures of funds such agency receives or expends to provide
                  servces to older individuals.

                  (14) Each area agency on aging shall provide assurances thatfunds received under
                  this title wil not be used to pay any part of a cost
                                                                       (including an administrative cost)
                  incurred by the area agency on aging to carr out a contract ör commercial
                  relationship that is not carried out to implement this title. .

                  (15) Each area agency on aging shall provide assurances that preference in receiving
                  services under this title wil not be given by the area agency on aging to particular
                  older individuals as a result of a contract or commercial relationship that is not carried
                  out to implement this title.


                  Sec. 307, STATE PLANS



                                                                                                               4




OEI.02.04,00290         COST SHARING FOR OLDER AMERICANS ACT SERVICES                                              30
APPEND X




                  (7)(A) The plan shall provide satisfactory assurance that such fiscal control and
                  fund accounting proceures will be adopted as may be necessary to assure
                  proper disbursement of, and accunting for, Federal funds paid under this tille to
                  the State, including any such funds paid to the recipients of a grant or contract.

                  (7)(8) The plan shall provide assurances that-
                  (i) no individual (appointed or otherwse) involved in the designation of the State agency
                  or an .area agency on aging, .or In the designation of the head of any subdivision of the
                  State agency or of an area agency on aging,    is subject to a conflct of interest
                  prohibited under this Act;
                  (ii) no officer, employee, or other representative of the State agency or an area
                  agency on aging is Subject to a conflict of interest prohibited under this Act; and
                  (iii) mechanisms are in place to Identify and remove conflcts of interest prohibited
                  under this Act.

                  (9) The plan shall provide assurances that the State agency wil carr out, through
                  the Offce of     the State Long-Term Care Ombudsman, a State Long-Term Care
                  Ombudsman program in accordance with section 712 and this title, and wil expend
                  for such purpose an amount that is not less than an amount expended by the State
                  agency with .funds received under this tite for fiscal year 2000, and an amount that is
                  not less than the amount expended by the State agency with funds received under
                  tille VII for fiscal year 2000.

                  (10) The plan shall provide assurance that the special needs of older individuals
                                 areas wil betaken into consideration and shall describe how those
                  residing in rural

                  needs have been met and describe how funds have been allocated to meet those
                  needs.

                  (11 )(A) The plan shall provide assurances that area agencies on aging wil--
                  (i) enter into contracts with providers  of legal assistance which can demonstrate the
                  experience or capacit to deliver .legal assistance;
                  (ij) include În any such contract provisions to assure that any recipient of funds under
                  division (A) will be subject to specifc restrictions and regulations promulgated under
                  the Legal Services Corporation Act (other than restrictions and regulations governing
                  eligibilty for legal assistance under such Act and governing membership of local
                  governing boards) as determined appropriate by the Assistant Secretary; and
                  (ii) attempt to Involve the private bar in legal assistance activities authorized under this
                  tille, including groups within the private bar furnishing services to older individuals on a
                  pro bono and reduced fee basis.

                  (11 )(8) The plan contains assurances that no legal assistance wil be furnished
                  unless the grantee administers a program designed to provide legal assistance to
                  older individuals with social or economic need and has agreed, if the grantee is not a
                  Legal Services Corporation project grantee, to Cbordinate its services with existing
                  Legal Services Corporation projects In the planning and service area in order to
                  concentrate the use of funds provIded under this title on individuals with the greatest


                                                                                                              5




OEI-02.04.00290         COST SHARING FOR OLDER AMERICANS ACT SERVICES                                             31
APPENDIX




                   such need; and the area agency on aging makes a finding, after assessment,
                   pursuant to standards for service promulgated by the Assistant Secretary, that any
                   grantee selected is the entity best able to provide the particular services.

                  (11 )(D) The plan contains assurances, to the extent practicable, that legal assistance
                  furnished under the plan wil be in addition to any legal assistance for older individuals
                  being furnished with funds from sources             other than this Act and that reasonable effort
                  will be made to maintain existing levels of legal           assistance   for older   Individuals;

                  (11 )(E) The plan contains       assurances that arèa agencies on aging wìlgive priori
                  to legal assistance related to income; health Care, long-term care, nutrition,
                  housing, utilites, protective services, defense of guardianship, abuse, neglect, and
                  age discrimination.

                  (12) The plan shall provide, whenever the State desires to provide for a fiscal year for
                  services for the prevention of abuse of older individuals, the plan contains assurances
                  that any area agency on aging carring    out such services wil conduct a program
                  consistent with relevant State law and coordinated with existing State adult protective
                  service activities for-
                   (A) public education to identify and prevent abuse of Dlder individuals;
                   (8) receipt of reports of abuse of older individuals;
                   (e) active participation of older individuals participating in programs under this Act
                  through outreach,   conferences, and referral of such individuals to other social service
                  agencies    or sourcs of assistance where appropriate and consented to by the parties to
                  be referred; and
                   (D) referral of complaints to law enforcement or public protective service agencies
                  where appropriate.

                  (13) The plan shall provide assurances that each State will assign personnel (one of
                  whom shall be known as a legal assistance developer) to provide State leadership In
                  developing legal assistance programs for older individuals throughout the State.

                  (14) The plan shall provide assurances that, if a substantial number  of the older
                  individuals residing in any planning and service area in the State are of limited
                  English-speaking abilty. then the State wil require the area agency on aging for
                  each such planning and service area-
                   (A) to utilze in the delivery of     outreach services under section 306(aX2XA), the
                  services of workers who are fluent in the language spoken by a predominant number
                  of such older individuals who aré of limited English-speaking abilty and
                   (8) to designate an individual employed by the area agency on aging, or available to
                  such area agency on aging on a full-time basis, whose responsibilties will include--
                   (i) taking such action as may be appropriate to assure that            counseling assistance is
                  made available to such older indíviduals who are             of limited English-speaking abilty in
                  order to assist such older individuals In participating in programs and receiving
                  assistance under this Act; and



                                                                                                                       6




OEI-02.04.00290          COST SHARING FOR OLDER AMERICANS ACT SERVICES                                                     32
APPEND X




                    (ii) providing gUidance to individuals engaged in the delivery of supportive services
                   under the area plan involved to enable such individuals to be aware of cultural
                   sensitivities and to take into account effectively linguistic and cultural oifferences.

                   (16) The plan shall provide assurances that the State agency wil require outreach
                   efforts that will identify individuals eligible for assistance under this Act, with
                                                                                                           special
                   emphasis on--
                  (A) older individuals residing in rural areas;
                  (8) older individuals with greatest economic need (with particular attention to
                  low-income minority individuals and older individuals residing in rural areas);
                  (C) older individuals with greatest social need (with particularalterition to low-income
                  minority individuals and older individuals residing in rural areas);
                  (D) older individuals with severe disabilties;
                  (E) older individuals with limited English-speaking abilty; and
                  (F) older individuals with Alzheimets disease or related disorders with neurological and
                  organic brain dysfunction (and the caretakers   of such individuals);and inform the older
                  individuals referred to in clauses (A) through (F) and the caretakers of such individuals,
                  of the availability of such assistance.

                   (17) The plan shall prOVide, with. respect to the needs of  older individuals with severe
                   disabilties, assurances that the State will coordinate planning, identification.
                  . assessment of needs, and service for older individuals with disabilties with particular
                   attention to individuals with severe disabilties with the State agencies withprimary
                   responsibilty for individuals with disabilties, including severe disabilites. to enhance
                   services and develop collaborative programs, where appropriate, to meet the needs of
                   older individuals with disabilties.

                   (18) The plan shall provide assurances that area agencies on aging wil conduct efforts
                   to faciltate the coordination of community-based, long-term care services, pursuant to
                   section 306(a)(7), for older individuals who- .
                   (A) reside at home and are at risk of institutonalization because of limitations on their
                   abilty to function independently;
                   (8) are patients in hospitals and are at risk of prolonged instiutionalization; or
                   (C) are patients in long-term care facilties, but who can return to their homes if
                  community-based services are provided to them.

                   (19) The plan shall include the assurances and description required by section
                   705(a).

                   (20) The plan shall provide assurances that            special efforts wil be made to
                   provide technical assistance to mInority providers of services.

                   (21) The plan shall
                   (A) provide an assurance that the State agency wil coordinate programs under this
                   title and programs under title VI, if applicable; and




                                                                                                                     7




OEI-02.04.00290          COST SHARING FOR OlOER AMERICANS ACT SERVICES                                                   33
APPENDIX




                    (8) provide an assurance that the State agency wil pursue activities to increase
                    access by older individuals who are Native Americans         to all aging programs and
                    benefits Provided by the .agency, including programs and benefits proVided under this
                    title, if applicable, and specify the ways in which the State agency intends to
                    implement the activities.

                    (22) If case managemÈmt services are offered to provide acceSs to supportive
                   services, the plan shall provide that the State agency shall ensure compliance wit
                   the requirements specified In section 306(a)(8).

                    (23) The plan shall provide assurances that demonstrable efforts wil be made-
                    (A) to coordinate servces provided under this Act wih other State services that benefit
                   older individuals; and
                     (8) to provide multigenerational activities, such as opportunities fòr older individuals to
                  . serve as mentors or advisers in child care, youth day care, educational assistance,
                    àt-risk youth intervention, juvenile delinquency treatment, and family support programs.

                    (24) The. plan shall proVide assurances that the State wil coordinate public
                    services within the State to assist older individuals to obtain transportation services
                    associated with access to servces provided under this title, to services under title
                    Vi, to comprehensive counseling services, and to legal assistance.

                     (25) The plan shall include assurances thatthe State has    in effect a mechanism to

                    provide for quality in the provision of in-home services under this tille. .

                     (26) The plan shall proVide assurances that funds received under this title wil not be
                    used to pay any part of a cost (including an administrative cost) incurred by the State
                    agency or an area agency on aging to carry out a contract or commercial relationship
                    that is not camed out to implement this title.




                    Sec. 308, PLANNING, COORDINATION, EVALUATION, AND
                    ADMINISTRATION OF STATE PLANS

                    (b)(3)(E) No application by a State under subparagraph (b)(3)(A) shall be approved'
                   Unless it contains assurances    that no amounts received by the State under this
                   paragraph will be used to hire any individual to fill a job opening created by the action
                   of the State in laying off or terminating the employment of any regular employee not
                   supported under this Act in anticipation of fillng the vacancy so created by hifing an
                   employee to be supported through use of amounts received under this paragraph.


                     Sec. 705, ADDITIONAL STATE PLAN REQUIREMENTS (as numbered                      in
                    statute)




OEI.02.04.00290           COST SHARING FOR OLDER AMERICANS ACT SERVICES                                            34
APPEND X




                    (1) The State plan shall provide an assurance that the State, in carring out any
                   chapter of this subtitle for which the State receives funding under this subtitle, wil
                   establish programs in accordance with the requirements of the chapter and this
                   chapter.

                   (2) The State plan shall provide an assurance that the State wil hold public hearings,
                   and use other means, to obtain the views of older individuals, area agencies on aging,
                   recipients of grants under title VI, and other interested persons and entities regarding
                   programs carred out under this subtitle. .
                    (3) The State plan shall provide an assurance that the State, in consultation with area
                   agencies on aging, wil identify and prioritize statewide activities aimed at ensuring that
                   older individuals have access to, and assistance in securing and maintaining, benefis
                   and rights.

                    (4) The State plan shall provide an assurance that the State will use funds made
                   available under this subtitle for a chapter in addition to, and wil not supplant, any funds
                   that are expended under any Federal or State law in existence on the day before the
                   date of the enactment of this subtitle, to carr out each of the vulnerable elder rights
                   protection activities described in the chapter.

                     (5) The State plan shall provide an assurance that the State will place no restrictions,
                    other than the requirements referred to in clauses (i) through (iv) of section
                  . 712(a)(5)(C), on the eligibilty of entities for designation as local Ombudsman entities
                    under section 712(a)(5).

                   (6) The State plan shall provide an assurance that, with respect to programs for
                  the prevention of elder abuse, neglect, 'and exploitation under chapter 3-
                   (A) in carring out such programs the State agency      wil conduct a program of
                  services consistent with relevant State law and coordinated with existing State
                  adult protective service activities for-
                    (i) public education to identify and prevent elder abuse;
                    (ii) receipt of reports of elder abuse;
                    (iii) active participation of older individuals participating in programs under this Act
                  through outreach, conferences, and referral of such individuals to other social
                  service agencies or sources of assistance if appropriate and if the individuals to be
                  referred consent; and
                   (iv) referral of complaints to law enforcement or public protective service agencies if
                  appropriate;
                   (B) the State wil not permit involuntary or coerced participation in the program of
                  services described in subparagraph (A) by alleged victims, abusers, or their
                  households; and
                   (e) allinfomiation gathered in the course of receiving reports and making referrals
                  shall remain confidential except': .
                   (i) if all parties to such complaint consent in writing to the rele;:se of such infomiation;


                                                                                                                  9




OEI-02.04.00290         COST SHARING fOR OLDER AMERICANS ACT SERVICES                                                 35
APPENDIX




                   (ii) if the release of such information is to a law enforcement agency, public
                  protective service   agency, licensing or certification agency, ombudsman progràm, or .
                  protection or advocacy system; or
                        (ii) upon court order.



                  REQUIRED ACTIVITIES

                  Sec. 307(a), STATE PLANS

                  (1 )(A)The State Agency requires each area agency on aging designated under section
                  305(a)(2)(A) to develop and submit to the State agency for approval, in accordance with
                  a uniform format developed by the State agency, an area plan meeting the
                  requirements of section 306; and
                  (8) The State plan is based on such area plans.
                  Note: THIS SUBSECTION OF STATUTE DOES NOT REQUIRE THA T AREA PLANS
                  BE DEVELOPED PRIOR TO STA TEPLANS AND/OR THA T STA TE PLANS
                  DEVELOP AS A COMPILA nON OF AREA PLANS.

                  (2) The State agency:
                  (A) evaluates, using uniform procedures described in section'202(a)(29), the need for
                  supportive servces (including legal assistance pursuantto 307(a)(11), information and
                  assistance, and transportation services), nutrition services, and multipurpose senior
                  centers within the State;

                   (8) has developed a standardized process to determine the extent to which public or
                  private programs and resources (including volunteers and programs and services of
                  voluntary organizations) have the capacity and actually meet such need;

                   (4) The State agency conducts periodic evaluations of, and public hearings on,
                  activities and projects carred out in the State under titles II and VII, including
                  evaluations of the effectiveness of services provided to individuals with   greatest
                  economic need, greatest social need, Or disabilties, with particular attention to low-
                  income minority individuals and older indMduals residing in rural areas. Note:
                  "Periodic" (defined in 45CFR Part 1321.3) means, at a minimum, once each fiscal year.

                  (5)The State agency:
                   (A) affords an opportunity for a public hearing upon request, in accordance with
                  published procedures, to any area agency on aging submitting a plan under this title, to
                  any provider of (or applicant to provide) services;
                   (8) issues guidelines applicable to grievance procedures required by section
                  306(a)(10); and




                                                                                                            10




OEI.02.04.00290            COST SHARING FOR OLDER AMERICANS ACT SERVICES                                         36
APPENDIX




                   (G) affords an opportunity for a public hearing, upon request, by an area agency on
                  aging, by a provider of (or applicant to provide) services, or by any recipient of services
                  under this title regarding any waiver request, including those under Section 316.

                   (6) The State agency   wil make such reports, in such form, and containing such
                  information, as the Assistant Secretary may require, arid compiy with such requirements
                  as the Assistant Secretary may impose to insure the correctness of such reports.

                   (8)(A) No supportve services, nutrition services, or in-home services are directly'
                  provided by the State agency or an area agency on aging in the State, unless, in the
                  judgment of the State agency-
                    (i) provision of such services by the State agency or the area agency on aging is
                  necessary to assure an adequate supply of such servces;
                   (ii) such services are directly related to such State agency's or area agency on aging's
                  administrative functions; or .
                  (ii) such services can be provided more economically, and with comparable quality, by
                  such State agency or area 'agency on aging.




                  Signature and Title of Authorized Offcial                      Date




                                                                                                           11




OEI-02.04.00290         COST SHARING FOR OLDER AMERICANS ACT SERVICES                                           37
APPENDIX




                                                      ATTACHMENT B
                        STATE PLAN PROVISIONS AND INFORMATION REQUIREMENTS

                  . The following provisions and information requirements are listed in the indicated
                   sections of the Older Americans Act, as amended in 2000. State Plans may address
                   the provisions and information requirements in a format determined by each State.

                   This attachment, along with requirements listed in the State Plan Guidance Program
                   Instruction (PI) and attchment A, State Plan Assurances
                                                                                  and Required Activities, make
                   up the package of instrctions for development of        State Plans. Italicized notes are
                   provided for the State agency's convenience as links to referenced citations.


                   Section I. State Plan Information Requirements

                   Information required by Sections 102,305,307 and 705 that must be provided in the
                   State Plan:


                   102(19)(G) - (required only if the State funds in-home servces not already defined
                   in Sec.102(19)) The term "in-home services" includes other in-home services as
                  defined by the State agency in the State plan submitted in accordance with Sec. 307.


                  Section 305(a)(2)(E)
                  The State agency shall provide assurance that preference wil be given to providing
                  services to older individuals with greatest economic need and older individuals with
                  greatest social need, with particular attention to low-income minorit individuals and
                  older individuals residing in rural areas and include proposed methods of carryng out
                  the preference in the State plan;


                  Section 307(a)


                  (2) The plan shall provide that the State agency wil:
                  (e) Specify a minimum proportion of the funds received by each area agency on aging
                  in the State to carry out part B that wil be expended (in the absence of a waiver under
                  sections 306(b) or 316) by such area agency on aging to provide each of the categories
                  of services specifed in section 306(a)(2) (Note: those categories are access, in-home,
                  arid legal assistance).


                  Section (307ra)(3)

                  The plan shall:




OEI-02.04.00290          COST SHARING FOR OLDER AMERICANS ACT SERVICES                                            38
APPEND X




                  (A) include (and may not be approved unless the Assistant      Secretary approves) the
                  statement and demonstration required by paragraphs (2) and (4) of section 305(d)
                  (concerning distribution of funds); (Nole: the Ustalement and dømonstrationø are the
                  numerical statement of the intrastalø funding formula, and a demonstration of the
                  allocation of funds to each planning and service area)

                  (B) with respect to services for older individuals residing in rural areas:

                  (i) provide assurances the State agency wil spend for each fiscal year of the plan, not
                  less than the amount expended for such services for fiscal year 2000.

                  (ii) identify, for each fiscal year to which the plan applies, the projected costs of
                  providing such services (including the cost     of providing access to such services).

                  (ii) describe the methods used to meet the needs for such services in the fiscal year
                  preceding the first year to which such plan applies.


                  Section 307(a)(8)) (Include in plan if applicable)

                  (B) Regarding case management services, if the State agency or area agency on aging
                  is already providing case management services (as of  the date of submission of the
                  plan) under a Slate program, the plan may specify that such agency is allowed to
                  continue to provide case management serviCes.

                  (C) The plan may specify that anarea agency on aging is allowed to directly provide
                  information and assistance services and outreach.


                  Section 307(a)(10)

                  The plan shall provide assurance that the special needs of older individuals residing in
                  rural areas are taken into consideration and shall describe how those needs have been
                  met and describe how funds have been allocated to meet those needs.


                  Section 307(a)(15)
                  The plan shall, with respect to the fiscal year preceding the fiscal year for which such
                  plan is prepared-

                  (A) identify the number of low-Income minority older individuals in the State; and

                  (B) describe the methods used to satisfy the service needs of such minority older
                  individuals.




                                                                                                             2




OEI.02.04.00290        ~OST SHARING FOR OLDER AMERICANS ACT SERVICES                                             39
APPEND X




                   Section 307(a)(21)
                    The plan shall:

                   (8) provide an assurance that the State agency wil pursue activities to increase access
                   by older individuals who are Native Americans to              all aging programs and benefits
                   provided by the agency, including programs and benefits provided under this title (tite
                   11), if applicable, and specify the ways in which the State agency intends to implement
                   the activties.



                  Section 705(a)(7)

                  In order to be eligible to receive an allotment under this subtitle, a State shall include in
                  the State plan submitted under section 307:

                  (7) a description of the manner in whIch the State agency wil carry out this title in
                  accordance with the assurances describe in paragraphs (1) through (6). (Note:
                  Paragraphs (1) of  through (6) of this section are listed below)

                  In order to be eligible to receive an allotment under this subtitle, a State shall include in
                  the State plan submited under section 307:
                  (1) fin assurance that the State, in carrying out any chapter of this subtite for which the
                  State receives funding under this subtitle, wifl establish programs in accordance with the
                  requirements of the chapter and this chapter;
                  (2) an assurance that the State will hold public hearings, and use other means, to obtain
                  the views of older individuals, area  agencies on aging, recipients of grants under tite Vi,
                  and other interested persons and entities regarding programs carried out under this
                  subtitle;
                  (3) an assurance that the State, in consultation with area agencies on aging, will identify
                  and prioritize statewide activities aimed at ensuring that older individuals
                                                                                                 have access
                  to, and assistance in securing and maintaining, benefis and rights;
                  (4) an assurance that the State wifl use funds made available under this subtitle for a
                  chapter in addition to, and will not supplant, any funds that are expended under any
                  Federal   or State law in existence on the day before the date of the enactment of this
                  subtite, to carry  out each of the vulnerable elder rights protection activities described in .
                  the Chapter;
                  (5) an assurance that the State will place no restrictions, other than the requirements
                  referred to in clauses (i) through (iv) of section 712(a)(5)(C), on the eligibility of entiies
                  for designation as local Ombudsman enüties under section 712(a)(5);
                  (6) an assurance that, with respect to programs for the prevention of elder abuse,
                  neglect, and exploitation under chapter 3-
                  (A) in carrying out such programs the State agency wil conduct a program of services
                  consistent with relevant State law and coordinated with existing State adult protective
                  service activities for:
                   (i) public education to identify and prevent elder abuse;
                   (ii) receipt of reports of elder abuse;



                                                                                                                   3




OEI.02.04.00290          COST SHARING FOR OLDER AMERICANS ACT SERVICES                                                 40
APPEND X




                    (Iii) active participation of older individuals participating In programs under this Act
                  through outreach, conferences, and referral of such individuals to other social servce
                  agencløs or sources of assistance. if appropriate and if the Individuals to be referred
                  consent; and
                   (iv) referrl of complaints to law enforcement or public protective service agencies if
                  appropriate;
                   (8) the State will not permit involuntary or coerced participation in the program of
                  servlcesdesCrbød in subparagraph (A) by alleged victims, abusers, or their
                  households; and
                   (e) all information gathered In the course of receiving reports and making røferrals
                  shall remain confidential except- .
                   (i) If all parties to such complaint consent in writing to the release of such Information;
                   (íi) If the release of such information is to a law enforcement agency, public protective
                  service agency, licensing or certifcation agency, ombudsman program, or protection or
                  advocacy system; or
                   (iii) upon court order.




                                                                                                               4




OEI.02.04.00290        COST SHARING FOR OLDER AMERICANS ACT SERVICES                                               41
~ ACKNOWLEDGMENTS
                   This report was prepared under the direction of Jodi Nudelman,
                   Regional Inspector General for Evaluation and Inspections in the New
                   York regional office. Other principal Offce of Evaluation and
                   Inspections staff     who contributed include:
                   Nancy Harrison, Team Leader
                   Elizabeth Jones, Program Analyst
                   Thomas Zimmermann, Program Analyst
                   Lekesha Campbell, Program Analyst
                   Ayana Everett, Program Specialist
                   Elise Stein, Director, Public Health and Human Services Branch


                   Technical Assistance
                   Barbara Tedesco, Mathematical Statistician




 OEI.02.04.00290   COST SHARING FOR OLDER AMERICANS ACT SERVICES                    42
